<html>
<title> - SITTING ON OUR ASSETS: THE VACANT FEDERAL COURTHOUSE IN MIAMI</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   SITTING ON OUR ASSETS: THE VACANT
                      FEDERAL COURTHOUSE IN MIAMI

=======================================================================

                                (112-98)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                    AUGUST 6, 2012 (Miami, Florida)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
75-438                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
CHIP CRAVAACK, Minnesota             DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
LARRY BUCSHON, Indiana               JASON ALTMIRE, Pennsylvania
BILLY LONG, Missouri                 TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      HEATH SHULER, North Carolina
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         ALBIO SIRES, New Jersey
STEVE SOUTHERLAND II, Florida        DONNA F. EDWARDS, Maryland
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman
TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,               Columbia
    Arkansas,                        HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
CHARLES J. ``CHUCK'' FLEISCHMANN,      (Ex Officio)
    Tennessee
JOHN L. MICA, Florida (Ex Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Hon. Frank M. Hull, Circuit Judge, United States Court of Appeals 
  for the Eleventh Circuit, and Member, Committee on Space and 
  Facilities of the Judicial Conference of the United States.....     8
David Wise, Director, Physical Infrastructure, U.S. Government 
  Accountability Office..........................................     8
John Smith, Regional Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................     8

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Frank M. Hull...............................................    34
David Wise.......................................................    42
John Smith.......................................................    50

                       SUBMISSIONS FOR THE RECORD

Letters to Hon. John L. Mica, a Representative in Congress from 
  the State of Florida, and Chairman of the Committee on 
  Transportation and Infrastructure, in support of his efforts to 
  sell more than 14,000 Government surplus properties, sent by:

        Rosendo Caveiro, CPA, Senior Director, Multifamily 
          Advisory Group, Cushman & Wakefield, August 16, 2012...    56
        Douglas G. Dennison, National Sales Coordinator, Rowell 
          Auctions, Inc., August 17, 2012........................    57
        Michael T. Fay, Chairman-Founding Partner, Colliers 
          International South Florida, August 16, 2012...........    58
        Craig Haskell, CEO, Value Hound Academy..................    59
        Gonzalo Herrera, District Sales Manager, Keyes Real 
          Estate Company, August 16, 2012........................    60
        Walter Liff, President, Auctioneer, Action Auctions, 
          August 15, 2012........................................    61
        Michael Pappas, President, Keyes International Center, 
          August 17, 2012........................................    62
        Robert J. Pliska, CRE, CPA, MBA, Managing Director, 
          Sperry Van Ness/Property Investment Advisors, August 
          15, 2012...............................................    63
        Howard W. Steinholz, President/Principal, The Urban 
          Group, Inc., August 15, 2012...........................    64
        Stanley G. Tate, Chairman, Tate Enterprises, August 17, 
          2012...................................................    65


[GRAPHIC] [TIFF OMITTED] T5438.001

[GRAPHIC] [TIFF OMITTED] T5438.002

[GRAPHIC] [TIFF OMITTED] T5438.003

[GRAPHIC] [TIFF OMITTED] T5438.004

[GRAPHIC] [TIFF OMITTED] T5438.005

[GRAPHIC] [TIFF OMITTED] T5438.006

[GRAPHIC] [TIFF OMITTED] T5438.007



                   SITTING ON OUR ASSETS: THE VACANT
                      FEDERAL COURTHOUSE IN MIAMI

                              ----------                              


                         MONDAY, AUGUST 6, 2012

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
the David W. Dyer Federal Building and U.S. Courthouse, 300 
N.E. 1st Avenue, Miami, Florida, Hon. John L. Mica (Chairman of 
the committee) presiding.
    Present: Representatives Mica and Denham.
    Also Present: Representative Diaz-Balart.
    Mr. Mica. Good morning. I would like to welcome everyone 
and call to order the Subcommittee on Economic Development, 
Public Buildings, and Emergency Management.
    I am Congressman John Mica. I am pleased to be able to 
chair the full Transportation and Infrastructure Committee of 
the House of Representatives. This is one of our subcommittees. 
I am pleased to be joined this morning by the chairman of the 
subcommittee, the gentleman from California, Mr. Denham. Within 
the portfolio of the committee and Mr. Denham's subcommittee, 
we do have the important responsibility of one of our three 
major areas of overseeing public buildings. These are not 
Department of Defense and they are not Post Office facilities, 
unless they are controlled by the General Services 
Administration, but all the balance of the properties.
    The General Services Administration is the largest property 
owner in the world. It is trustee for all of the public 
properties and assets of the United States and our chief 
procurement agency.
    We are pleased to be in Miami today as a continuance of 
some of the emphasis of the committee, some of our work, and I 
will explain that in just a second.
    Let me again say welcome, Mr. Denham, and I also thank Mr. 
Diaz-Balart, a former distinguished member of the committee and 
subcommittee, a chair. We are very proud of his service on this 
committee. He went on to be a member of the Appropriations 
Committee of the House of Representatives, and I think it is 
very fitting that he join us today because while we authorize 
projects, he funds projects in that important role and 
responsibility.
    So I would like to ask unanimous consent that 
Representative Diaz-Balart be permitted to sit with the 
committee at today's hearing, offer testimony and participate 
in questions. Without objection, so ordered.
    So, pleased to have you this morning.
    Mr. Diaz-Balart. Thank you.
    Mr. Mica. I know you welcomed Mr. Denham to Miami, Chairman 
Denham. We are pleased to have him come all the way from 
California and be with us today and assist not only with this 
hearing, but next week he will be chairing a hearing on the 
same subject in Los Angeles. Our committee is taking the issue 
of vacant or underutilized Federal properties from Washington, 
and we have done hearings there today, to Florida with this 
first one outside of the Nation's capital, and onto the west 
coast. So we are going to go from sea to shining sea.
    We have, under the purview of the GSA, more than 9,000 
buildings or properties. The Federal Government also has in the 
neighborhood of 14,000 properties, buildings that are vacant or 
properties that are underutilized. We have done three hearings 
in our Nation's capital while Congress is in session to focus 
on vacant buildings in the capital. This is not just some 
Johnny-Come-Lately type of an investigation or oversight but 
actually our committee, when Mr. Diaz-Balart was on the 
committee, before we became the majority about a year-and-a-
half ago, we produced a report entitled, ``Sitting on Our 
Assets: The Federal Government's Misuse of Taxpayer-Owned 
Assets,'' and within that, the very first category of abuses 
that were identified and targeted and actually have become the 
blueprint for this committee's work was the problems with GSA 
sitting on incredibly valuable assets, not only in Washington, 
DC, but across the United States, just like we will find out 
here in south Florida, and then on the other side of the 
continent, in Los Angeles next week.
    Mr. Denham and I did three hearings, the first one in a 
vacant annex to the Old Post Office in Washington, vacant for 
15 years, costing $8 million a year, two blocks from the White 
House. We managed within a year to turn that around from a 
money-losing asset to now with the potential of a site 
employing 1,000 employees, and probably $8 to $10 million a 
year in revenue, and taking an unproductive Federal property 
and turning it around. I am very pleased with that effort.
    Our committee then moved to a vacant building between the 
interstate and the Mall, a wide swath of property with, I 
believe, an 89,000-square-foot building, vacant for 5 years, 
the Cotton Annex that sat vacant. And then in our last hearing 
in the Nation's capital, we held a hearing in a vacant power 
building, a power station building behind the Ritz Carlton in 
Georgetown, Washington, some of the most expensive real estate 
on the entire east coast, 2.08 acres sitting vacant for 11 
years.
    Now, the good news is when Mr. Denham and I did our 
hearing, the day before--and maybe you can pull this up--the 
day before, we forced GSA to begin a marketing campaign. So 
they actually put up a ``Coming Soon, For Sale'' sign the day 
before our hearing, which is remarkable that GSA would not take 
an initiative to take a valuable piece of property and 
transform it into a performing asset.
    So we have done three hearings in the Nation's capital. 
Today is our fourth. Mr. Denham and I use this little chart. We 
had 14,000 properties. Now we only have 13,996 to go. Next week 
we will get that down to 95.
    The good news about this property, as unfortunately it has 
been vacant since 2007, and we have also inspired GSA to move 
in trying to come up with a better utilization plan. On Friday, 
they announced their plans to try to seek--it says, ``GSA seeks 
ideas to develop Miami Courthouse.'' So again, 180,000, maybe 
178,000 square feet of prime office and court space facilities 
in the heart of Miami, probably one of the most robust cities 
not only in the State of Florida but in the United States, 
sitting idle.
    So here we find ourselves in this courthouse this morning. 
This is the David Dyer Federal Courthouse, vacant since 2007. 
It has annual operating expenses that are lost to the taxpayers 
of $1.2 million operating costs. If you multiply that by the 
years vacant, the dollars start to add up.
    Incidentally, I brought for my colleagues--this was 
presented to me. We have done hearings on GSA. Of course, you 
have all seen the guy in the hot tub who thumbed his nose, and 
the expensive conferences they did, first in Las Vegas, and the 
guy thumbed his nose at the committee, the Congress and the 
taxpayers. Our most recent scandal is in our investigation to 
uncover waste to their conferences was a one-day, quarter-of-a-
million-dollar fiasco. These are actually two of the $20,000 
drumsticks. I don't know if you have ever seen $20,000 
drumsticks, but they paid $20,000 for drumsticks for a Virginia 
conference, 1 day, $104,000 to a consultant to put the 1-day 
conference together, and $35,000 for picture frames. I don't 
have one of the $35,000 picture frames, but someone did present 
me--these are authentic, and actually they are engraved to 
commemorate the occasion of the conference that was held in 
Virginia.
    That is the situation that we face with GSA. 
Unfortunately--well, fortunately for the taxpayers, the first 
level of abusers has been removed. The Administrator, the 
Public Buildings Commissioner, Mr. Neely, one of the regional 
administrators and one of the chief offenders, and a host of 
others have been removed. Last week we held a hearing in 
Washington, Mr. Denham and I, and we are on our second level of 
GSA officials involved in, again, these wasteful conferences, 
and we found, unfortunately, no one wanted to appear. They 
brought forward an employee who had only been in the position 
for about 3 months. The Administrator was on vacation and 
couldn't be disturbed. A deputy did not choose to come because 
the deputy and some others are now involved in the second 
conference. So we have had difficulty in eliciting information, 
testimony, documentation, or even witnesses to our hearings.
    So that is the situation that we find ourselves in this 
morning, and again a courthouse that has grown to be a huge 
burden on taxpayers, an agency that is mired in neutral on 
trying to dispose or better utilize these facilities.
    I must add a caveat to my commentary and give GSA a little 
bit of a break in that Congress also holds responsibility 
because sometimes they do not cooperate with the agency in 
moving forward. However, there was an authorization for moving 
forward with this particular project some time ago. The 
administration--let me just check so I have the accurate 
figures. The stimulus provided GSA with $5.9 billion 3 years 
ago, stimulus money to renovate buildings like this. But again, 
GSA turned its back on the taxpayers, turned its back on this 
building to turn a money loser into a revenue gainer for the 
taxpayers.
    Now we are up to an estimated cost of $60 million. This has 
sat idle, and I think it has some mold and other issues. The 
new courthouse that was built next door, the Wilkie D. 
Ferguson, opened in 2007 when this closed, was overbuilt by 
238,000 square feet, and had a cost overrun of $49 million. It 
still has substantial vacant space. We will hear more about its 
potential for utilization as the hearing proceeds.
    So with that, the order of business will be that I yield 
now to Chairman Denham. I thank him again for his undaunting 
leadership in pursuing these matters. I told him this morning 
on the way over, of all the freshmen, Mr. Diaz, all the new 
Members of Congress, I think he is by far the most outstanding 
performer. He has done a remarkable job, provided leadership. 
He had some experience as an elected official in the California 
legislature. But I couldn't be more pleased to have a leader on 
our committee, a new Member of Congress, just an absolutely 
incredible job again in pursuing this matter and other matters. 
He has a portfolio that has very broad jurisdiction.
    So with that, Mr. Chairman, Chairman Denham, I would like 
to yield to you.
    Mr. Denham. Well, thank you, Mr. Chairman, and good 
morning. Let me first start by saying I was able to pick up the 
ball and run with it because of your leadership. The document 
that you had put together on GSA sitting on its assets is 
something that has been a playbook that we have been able to 
run with ever since the beginning of the 112th Congress. This 
is something that has gone on for far too long.
    You know, I have actually taken the position that the 
question that should really be asked is couldn't we do without 
GSA altogether? Can we actually abolish the agency and have 
private industry pick up that ball and run with it?
    So I am proud to have Mr. Diaz-Balart here, who is on the 
Appropriations Committee that will oversee the funding of GSA.
    I think one of the questions that we will be asking in the 
113th Congress is what level of appropriation does GSA need? If 
GSA is not going to follow the President's memorandum, if they 
are not going to follow his Executive order on pay freezes, 
bonuses and overtime, if they are not going to follow the 
President's Executive order on excess properties, and if they 
are not going to follow the Vice President coming together with 
all of the department heads on the conferences and the wasteful 
spending, the question really is should we cut off their money 
altogether?
    So I am proud to have Mr. Diaz-Balart here, who actually 
sat in this position under this subcommittee prior to going to 
the Appropriations. This will be a joint effort between 
Appropriations and the funding for GSA in the future, as well 
as this committee that oversees all of the public buildings 
altogether.
    We are here in Miami for two reasons, to continue our 
investigation into the billions of dollars wasted on vacant 
buildings just like this one, and for the public to see the 
likely outcome if GSA builds a new $340 million courthouse in 
Los Angeles, where we still have two existing courthouses, one 
that is partially full, one that is just about vacant, and yet 
even with less judges, they want to continue to move forward to 
build a new courthouse.
    This is a perfect example of how things should not be done. 
Here we have a beautiful, historic building that is sitting 
dilapidated, mold. You can see its historic and beauty here, 
and yet we are allowing it to fall apart because GSA is not 
focused on the best use for its assets.
    I am also told that we have over 3 million square feet of 
leased space in the Miami area. So the question is why is a 
building like this sitting vacant? If it is not needed, let's 
sell it off. If we do need it, then let's relocate the 
individuals that are in other buildings around the area into 
this facility.
    But we have a job to do for the taxpayers and making sure 
that their dollars are spent correctly. So seeing something 
that is not only sitting vacant but falling apart in the 
process and costing us millions of dollars is inappropriate.
    I want to just highlight a few different properties. 
Fourteen thousand is a small number compared to the overall 
portfolio the GSA has. Those are the excess properties. Yet, 
properties like this, properties like the Old Post Office that 
sat vacant for over a decade, the Cotton Annex, many, many 
others that aren't even on that list. Again, we have a job to 
do, to sell off these properties, to relocate agencies that are 
in leased space, and we are going to hold GSA's feet to the 
fire because, as the chairman already said, these properties 
are not getting liquidated, they are not getting sold, they are 
not getting redeveloped or, in the case of Georgetown, even 
offered up to sale until we hold a hearing. So we will hold as 
many hearings as it takes to get the best outcome for the 
taxpayer.
    We have a whole separate issue with these courthouses. I 
have toured many of them across the Nation. Up in New York, we 
have seen courtroom sharing as they are renovating the 
courtroom next door. I am told now that even though they have a 
new courthouse and an old courthouse that is being renovated, 
rather than utilizing that excess square footage for the huge 
amount of leased space that we have in the New York area, they 
are looking at taking a very successful courtroom-sharing model 
and expanding into space that they don't need.
    Here we have seen the same thing with four courtrooms, four 
buildings, and yet not only overbuilding for excess square 
footage but this one sitting vacant. In L.A., we will go take a 
look again next week to see what GSA's plan is for that one. 
But again, wanting to build a new courtroom, a new huge office 
building when you have one that is sitting vacant, one that is 
sitting underutilized, is just a bad use of taxpayer dollars.
    And with that, in conclusion, let me just say obviously I 
am very disappointed that you have an agency that continues to 
ignore the Commander in Chief. The President of this great 
Nation has issued an Executive order, two Executive orders and 
a memorandum on GSA on conferences, on buildings, on saving 
money for the taxpayer dollars, and yet we have an agency that 
continues to ignore that.
    I am also disappointed today that the new acting director, 
who we continue to give every opportunity to show how things 
are being changed, is not here today. I understand that he 
couldn't be here last week as well because of a personal family 
obligation. But let's be very clear, you have had several 
weeks--we have had several months now to notice not only this 
hearing but the one in Los Angeles, and this committee fully 
expects the new acting director, Dan Tangherlini, to be there.
    With that, I yield back.
    Mr. Mica. I thank the gentleman.
    I am pleased now to recognize Mr. Diaz-Balart.
    Mr. Diaz-Balart. Mr. Chairman, let me first thank you for 
this hearing, but more importantly for what you have done for 
Florida, for Miami-Dade County, and for the Nation. I think 
very few people have been as effective in rooting out waste as 
you have, Mr. Chairman. It was one of the distinct honors of my 
years in public service to be able to serve under your 
leadership in your committee. When I went to the Appropriations 
Committee, then you upgraded by having a much better chairman 
than I clearly was or could have been.
    And you, Mr. Chairman Denham, also for your steadfast 
leadership. You have been a real champion for the taxpayer. If 
the American people just were to spend a little time here today 
and they were to see, look at those windows and look at that 
painting and look at the ceiling, this could be the Biltmore 
Hotel in Coral Gables, but it is not. It is a vacant piece of 
property that is a national treasure.
    It is vacant, so not only is it not being utilized, not 
only is it going into disrepair, but the taxpayers are paying 
to maintain this empty building. Then, of course, it was 
replaced by a building next door that, as the chairman said, 
was 20 percent overbuilt.
    Now, I wish, we all wish that this was the exception to the 
rule, that this is a weird aberration and this just happens to 
be this weird building somehow that fell through the cracks. It 
isn't. This is everywhere throughout the country, including, as 
Chairman Mica and Chairman Denham just mentioned, including in 
the capital of the United States, where you have prime 
properties that sit vacant for years, one next to Georgetown, 
in Georgetown. But again, it is not an aberration.
    I need to thank you gentlemen for the leadership that you 
are providing in trying to stop this throwing away--it is not 
even waste. It is beyond wasteful. It is really beyond 
wasteful, just throwing taxpayer money away while buildings 
like this sit vacant. Again, there is just no explanation.
    Also, your staff, I want to thank your staff. I have had 
the privilege of working with your staff, and they are among 
the best on Capitol Hill.
    So I am looking forward to listening to our expert 
witnesses today to see why is this not the exception, why is 
this almost the rule, and what steps, specific concrete steps 
are being taken to not only avoid this happening in the future 
but also to make sure that properties like this don't sit 
vacant, aren't costing the taxpayer money.
    I am looking forward to their testimony. But I will tell 
you that this is among the most frustrating and infuriating 
things that one witnesses in the Federal Government, when you 
see buildings like this vacant, when you see buildings that are 
overbuilt, when you see buildings where taxpayer money is just 
being thrown into and there is, frankly, no excuse for it, and 
then to have to hear--and I don't mean to be overcritical, but 
some of our colleagues even who are constantly saying that the 
Federal Government doesn't have enough money, that we need to 
raise taxes. Really?
    Come here. Come look at this building. Come look at this 
empty, beautiful building in the heart of downtown Miami. Or go 
to the heart of Washington, DC, and see buildings like this 
that are sitting empty. As bad as the $20,000 drumsticks are, 
and they are, and it is frankly unacceptable, immoral, even 
more money is being wasted every single day while buildings 
like this sit empty. And then we need to raise money, more 
money for the Federal Government? We have to raise taxes? For 
God's sake, get real.
    I am so grateful to you, Chairman Mica and Chairman Denham, 
for the leadership that you are providing, for making sure that 
the American taxpayer's money stops being wasted and that 
buildings like this don't just sit empty year after year.
    I saw, Chairman Mica, that GSA now has advertised that they 
are looking at ways, what to do with this building. How many 
years after this building has been sitting vacant? It is great 
to see that every time your committee and your subcommittee do 
a hearing, all of a sudden that building that you are 
highlighting becomes interesting, and all of a sudden people 
realize that it is even here.
    But again, this is not the exception. This is not the 
exception. It is immoral. It is unacceptable. I cannot thank 
you enough for your leadership, and I look forward to the 
testimony of our distinguished panel. Thank you.
    Mr. Mica. Well, thank you again, Mr. Diaz-Balart, for your 
service on our committee, your leadership as the former chair 
of this subcommittee, and also Mr. Denham, for taking time. 
Right now a lot of folks are away, but you are both actively 
involved in this project to highlight, as we are trying to do, 
some of the waste, inefficiency, and just lack of attention by 
a Federal agency.
    In an effort to try to remedy this situation, it is nice to 
talk about things, but we also want a positive accomplishment. 
We have got to find out first how we got ourselves into this 
situation and then find out how we can better utilize taxpayer 
assets, and to do that we have assembled a panel before us 
today, and I am grateful for the three witnesses who have taken 
time and are appearing today. I will recognize them first. Let 
me introduce them.
    We have first the Honorable Frank M. Hull, circuit judge of 
the United States Court of Appeals of the Eleventh Circuit. We 
have Mr. David Wise, director of the Physical Infrastructure 
team of the U.S. Government Accountability Office. Then we have 
Mr. John Smith, the Region 4 commissioner of the Public 
Buildings Service, General Services Administration. Those are 
our witnesses. I welcome you.
    The custom before our committee is to present sort of a 
summary. You probably have some prepared remarks here. You are 
welcome to deviate from them and submit as much information to 
the committee as you wish. So what I will do is I will 
recognize you, then we will hear from all three, and then we 
will go through a little series of questions from Members. That 
will be the order of business.
    So again, welcome, and while I expected a gentleman, we 
have a very distinguished gentle lady and judge from the bench, 
the Federal bench. We are just delighted to have you come, I 
think, from Atlanta today and be with us.
    I guess when you are in a Federal courthouse, you say, oh, 
I am not an attorney, but they always say, ``May it please the 
court.'' Unfortunately, this situation doesn't please the court 
or the taxpayers, or the Congress. So we have got a little bit 
of a situation to deal with, but we are just very grateful that 
you would take time, Your Honor, to be with us and represent 
the court in this matter.
    So I would like to recognize you and welcome you at this 
time.

TESTIMONY OF THE HONORABLE FRANK M. HULL, CIRCUIT JUDGE, UNITED 
 STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT, AND MEMBER, 
COMMITTEE ON SPACE AND FACILITIES OF THE JUDICIAL CONFERENCE OF 
       THE UNITED STATES; DAVID WISE, DIRECTOR, PHYSICAL 
INFRASTRUCTURE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND JOHN 
 SMITH, REGIONAL COMMISSIONER, PUBLIC BUILDINGS SERVICE, U.S. 
                GENERAL SERVICES ADMINISTRATION

    Judge Hull. Thank you. Good morning, Chairman Mica, 
Chairman Denham, and Congressman Diaz-Balart. My name is Frank 
Hull. My mother is Frank, my grandmother is Frank, and my 
great-grandmother was Frank. I come by it honestly. My daughter 
is Molly.
    [Laughter.]
    Judge Hull. Named for my mother-in-law. I am a wise judge.
    As you mentioned, I serve as a judge on the United States 
Court of Appeals for the Eleventh Circuit, which hears appeals 
from Georgia, Alabama and, of course, Florida. Florida is our 
largest jurisdiction and provides most of our caseload, 
although we do have a significant number of cases from the 
other two states on appeal.
    However, today I actually am appearing in my capacity as 
one of the members of the Judicial Conference's Space and 
Facilities Committee. The Judicial Conference is the 
judiciary's national policymaking body.
    At the outset, I appreciate the opportunity to appear, but 
I think it is important for me also to stress the Federal 
courts could not do their job without infrastructure, and we 
cannot do our jobs without the help of this committee. This 
committee has been very helpful in assuring that we do have 
adequate courthouses, adequate facilities to handle what has 
really been a tripling of the caseload in the Miami community.
    So I think, particularly to Congressman Diaz-Balart, I want 
to express our appreciation for helping the judiciary be able 
to handle and plan for this growing Miami community caseload. 
It has tripled both in criminal cases and in civil cases, and 
without the infrastructure, we could not do our jobs. So I 
sincerely thank this committee at the outset.
    Now, let's discuss what the issues are today, and I will 
start with the Dyer Building. The Dyer Building, as you know, 
was built in 1933. It served the Federal courts extremely well 
for many, many years. But as the caseload grew and we did get a 
lot of new judges in Miami, the Federal district court outgrew 
this building appreciably. But that wasn't just the main 
problem. The main problem was security.
    The biggest problem for the district court in this building 
was that there is only one main corridor. Prisoners, the 
general public, and court staff all shared the same corridors. 
The U.S. Marshals Office rated it highly unsafe. There were 
serious problems. So the court outgrew the building, there were 
significant security problems, and so Ferguson was planned and 
built. And we moved--that is, the Federal courts moved into 
Ferguson, I believe approximately in 2008, Chairman Mica, 
although I don't think 1 year matters here or there. But the 
Federal court did move from Dyer into Ferguson in 2008.
    The Federal court's position is that the decision with 
regard to the Dyer Building is GSA's decision. So I will spend 
my time primarily talking about the Ferguson Building.
    The Ferguson Courthouse was planned back in the late 1990s 
and the early 2000 time period. The planning, design, and the 
construction process took approximately 8 years, and as I said, 
we moved into it in 2008.
    Today, every courtroom and every chamber in the Ferguson 
building is being utilized except for one vacant courtroom and 
one vacant chamber. There is a judge vacancy on that court. 
This is an existing vacancy. It will be filled, and then that 
new replacement judge will be assigned that courtroom.
    In addition, it is very important to point out that we have 
seven active district court judges in the Ferguson Courthouse 
who are eligible for senior status. They are like me. They are 
in their early 60s. They are eligible for senior status at age 
65. So we are going to have seven new active judges within 3 to 
5 years. I am not talking about new judgeships. I am talking 
about existing judgeships. So we are going to have to house, 
and we will house, the new seven active district court judges 
in Ferguson when those take senior status.
    So what we are doing is we are taking this hearing at a 
point in time, 2012, 4 years after Ferguson has come online. Is 
it totally full? No, it is not totally full today. That is very 
correct. But what do we do? Don't we need to build for some 
excess capacity? We have built for excess capacity. The 
building came online in 2008, and I suggest to you well before 
2018 they will not only be full in Ferguson but there will be 
significant courtroom sharing. We will look back, particularly 
in this day and time of critical lack of resources, and see 
that this has been good planning--to have Ferguson have some 
excess space which will be tomorrow's needed adequate space.
    There are two other things. I want to be brief, and I am 
not going through my whole statement, so don't worry about 
that. I am going to be very brief. We have a lot more data in 
the statement. But there are two things that the judiciary has 
done to change its policies. As a result of the GAO report, we 
learned a lot. As a result of questions from this committee, we 
learned a lot. The examination and scrutiny of this committee 
has been extremely helpful to the judiciary, and as a result we 
have changed some policies, and here is one key change.
    When Ferguson was planned, there were no courtroom sharing 
policies. Today, the judiciary has courtroom sharing policies. 
We have adopted them in 2008 for senior judges, for magistrate 
judges, and now we have adopted them for bankruptcy judges. So 
that is a huge policy change and hopefully will make our 
planning better in the future.
    The second big policy change for the judiciary, as a result 
of all of this, has been that we formerly used a caseload 
methodology. So what we did is we predicted Miami will grow. We 
predicted the caseload will grow. If you have a certain amount 
of new cases, you need a new judge. We figured out the number 
of new judges needed, and then we planned space for new judges.
    We were good at predicting the growth in Miami. We were 
good at predicting the caseload growth. But what we were not 
good at predicting is how many new judges we would get. 
Congress has not created the new judgeships. That is a fact. So 
we are no longer planning for judgeships based on caseload and 
new judges because that has proven to not be workable--we have 
not gotten them. Right now, there is a request for three new 
judgeships for Miami, OK? So that was part of the planning for 
the Ferguson. But we are no longer planning for future 
judgeships. We are only planning for existing judgeships, with 
some small growth built into a building. Also, you don't want a 
building 100 percent full the day you open the building because 
it is going to have a 50-year life.
    So I think it is very important that the judiciary has a 
good working relationship with this committee. We are 
interested, highly interested in the work of this committee. We 
are grateful for the work of this committee, and we have 
refined our planning policies.
    Lastly, I want to talk about peaks and valleys, and I want 
to use two analogies. One is the power grid, and the other one 
is the fire department.
    The judiciary has to be ready. When there are speedy trial 
demands, we have to have the courtrooms. We have to be 
prepared. We cannot plan for the power grid for spring when we 
don't need air conditioning. We have to plan the power grid for 
peak demands in August. We cannot afford to be overwhelmed. We 
have to have places and judges to try the cases.
    So we plan for the peaks. We actually don't plan for the 
valleys because we have to be able to handle the August peak.
    The fire department is another good analogy. It is not 
perfect. It can be attacked. But even if there is only one fire 
every week in Miami, we don't just have one fire station. You 
plan in case, on 1 day, there are two fires, and that is what 
happens with us. We are providing a valuable Government 
service. We cannot be overwhelmed. We have to be ready.
    So has our planning been perfect? No, it has not been 
perfect. Have we learned a lot of lessons, and are we going 
forward with a better planning process? The answer is yes. I 
think it is highly appropriate that we build not only for 
today, which we have done in Ferguson, but that we have some 
growth space. The demographics are that Miami is going to grow 
35 percent in the next 10 to 15 years. It is going to happen 
again. And as a result of the work of this committee and the 
courts working together, we are going to be ready to handle 
that caseload.
    So I thank you very much, and I am more than happy to 
answer any of your questions. We want to establish a good 
working relationship with the committee because we have the 
same interests. Thank you.
    Mr. Mica. Thank you, Judge Hull.
    We will turn now to Mr. David Wise, and he is the Director 
of the Physical Infrastructure team of U.S. GAO.
    Welcome, and you are recognized, sir.
    Mr. Wise. Thank you. Chairman Mica, Chairman Denham, and 
Congressman Diaz-Balart, I am pleased to be here today to 
discuss the Federal Government's efforts to collect data on its 
excess and underutilized real property assets and the need to 
better and more effectively manage these assets.
    In 2004, the President issued an Executive order 
establishing the Federal Real Property Council, chaired by the 
Office of Management and Budget. The Executive order required 
the FRPC to work with the GSA to establish and maintain a 
single, comprehensive database describing the nature, use, and 
extent of all real property under the custody and control of 
executive branch agencies, except when otherwise required for 
reasons of national security.
    The FRPC created the Federal Real Property Profile to meet 
the requirements and began data collection in 2005. In 2010, 
Federal agencies reported about 3.35 billion square feet of 
building space to the Federal database, which has a vast 
portfolio that the Federal Government faces substantial 
management challenges.
    The courthouse where we are sitting today is an example of 
the large challenges facing the Federal Government in 
effectively managing its real property.
    My statement today will make three main points. One, the 
Federal Government needs better data and a national strategy to 
improve Federal real property management. Two, potential cost 
savings achieved from efforts to improve property management 
are unclear. And three, agencies still face longstanding 
challenges to managing their real property portfolios.
    The FRPC has not followed sound data collection practices 
in designing and maintaining the FRPP database, raising 
concerns that the database is not a useful tool for describing 
the nature, use, and extent of excess and underutilized Federal 
real property. The FRPC has not ensured that key data elements, 
including buildings' utilization, condition, annual operating 
costs, mission dependency, and value, are defined and reported 
consistently and accurately.
    For example, we documented buildings reported to the FRPP 
as underutilized even though they were fully occupied. We also 
documented others that were vacant but reported as utilized. In 
addition, we observed severely dilapidated buildings that were 
reported as being in excellent condition. At 23 of the 26 
locations we visited, we identified inconsistencies and 
inaccuracies related to these data elements. As a result, FRPC 
cannot ensure that FRPP data are sufficiently reliable to 
support sound management and decisionmaking about excess and 
underutilized property.
    The Federal Government has sought ways to generate cost 
savings associated with improving management of excess and 
underutilized properties. However, the potential savings are 
unclear. For example, in response to requirements set forth in 
a June 2010 Presidential memorandum for agencies to achieve $3 
billion in savings by the end of fiscal year 2012, GSA reported 
approximately $118 million in lease cost savings resulting from 
four new construction projects. However, the GSA has yet to 
occupy these buildings, and the agency's cost-savings analysis 
projected these savings would occur over a 30-year period, far 
beyond the timeframe of the Presidential memorandum.
    Even though the cost savings achieved from efforts to 
improve property management are unclear, the Federal agencies 
that we reviewed have taken some actions to better manage 
excess and underutilized property, including using these 
properties to meet space needs by consolidating offices and 
reducing employee work space.
    As we reported and testified in the past, Federal agencies 
still face longstanding challenges to managing these 
properties. These include the high cost of property disposal, 
legal requirements prior to disposal such as those related to 
preserving historical preservation and the environment, 
stakeholder resistance, and remote property locations that are 
difficult to sell or dispose.
    To address these concerns, we recommended that OMB, in 
collaboration and consultation with FRPC member agencies, 
develop and publish a national strategy for managing Federal 
excess and underutilized real property. In addition, we also 
recommended that GSA, in collaboration and consultation with 
FRPC member agencies, develop and implement a plan to improve 
the FRPP consistent with sound data collection practices, so 
that the data collected are complete, accurate, and consistent.
    This concludes my prepared statement. I would be happy to 
answer any questions from the committee.
    Mr. Mica. Thank you, and we will hold questions until we 
have heard next from Mr. John Smith, who is Region 4 
Commissioner of the Public Building Service of GSA.
    Welcome, sir, and you are recognized.
    Mr. Smith. Thank you, Mr. Chairman. Good morning, Chairman 
Denham, Chairman Mica, Congressman Diaz-Balart. My name is John 
Smith. I am the Regional Commissioner for the GSA's Public 
Building Service in the Southeast Sunbelt Region. Thank you for 
the opportunity to join you here today at the David W. Dyer 
Federal Building and United States Courthouse, a property GSA 
will be repositioning and one that highlights the unique 
challenges of moving real property.
    The administration has set aggressive goals to better 
utilize Federal real property, and GSA's Southeast Sunbelt 
Region is doing its part to help achieve savings on behalf of 
the American taxpayer.
    In GSA's capacity as one of the many landholding agencies, 
we supply office space to other Federal agencies in support of 
their mission. GSA has a robust asset management program to 
track the utilization of our inventory, strategically invest in 
our assets, where needed, and aggressively dispose of unneeded 
assets.
    Following the President's memorandum entitled, ``Disposing 
of Unneeded Federal Real Estate,'' which charged civilian 
agencies to utilize space, reduce operating costs, and dispose 
of unneeded property more effectively to save $3 billion by the 
end of 2012, GSA has played a role in both generating savings 
from its own real estate, as well as helping other agencies to 
find savings. The administration recently announced that the 
Federal Government will not only meet but will exceed this $3 
billion goal.
    While GSA has a large real estate portfolio to manage, the 
broader Federal Government portfolio is far more extensive. Of 
almost 900,000 buildings and structures reported in the fiscal 
year 2010 Federal Real Property Profile, GSA controls 9,400 of 
these assets. GSA's Southeast Sunbelt Region is responsible for 
1,500 of these assets.
    As a result of our efforts, GSA leads the market with our 
vacancy rates and utilization; 3 percent of our portfolio has 
been classified as an under or not utilized asset. In the 
Southeast Sunbelt Region, 2 percent of our portfolio is under 
or not utilized. Although we work diligently to identify 
unneeded assets for disposal, it is important to note that not 
all properties labeled as underutilized are available for sale. 
For example, some underutilized assets can be buildings under 
renovation. When we find underutilized space in areas where 
there is a continuing Federal need, GSA works aggressively to 
renovate and reuse the asset to achieve greater utilization.
    In the Federal Real Property Profile, GSA identified 124 
assets as excess to our own agency's needs and began the 
disposal process for these assets. Of those 124 assets, the 
Southeast Sunbelt Region had only 1.
    Our low numbers of underutilized and excess assets are a 
testament to a major restructuring in our portfolio implemented 
over the past decade aimed at right-sizing our real estate 
portfolio. In the last 10 years, we have disposed of more than 
280 GSA assets, valued at over $260 million. Thirty-four of 
these assets were from the Southeast Sunbelt Region, generating 
almost $25 million.
    One example of a recent disposal in the Southeast Sunbelt 
Region is the James O. Eastland Federal Building and Courthouse 
in Jackson, Mississippi. The Eastland Federal Building, which 
has 115,000 gross square feet of office space and related space 
and is situated on 1.5 acres of land, was listed in the 
National Register of Historic Places in 1976 as a contributing 
property to the Smith Park Architectural District. The property 
was sold through an online auction for about $1.4 million, and 
was conveyed to a local Jackson, Mississippi developer, David 
Watkins, on March 1, 2012, to be transformed into an institute 
for the arts.
    Today, the committee has chosen to host a hearing at the 
historic Dyer Courthouse, a property for which we are actively 
exploring repositioning strategies. The Dyer Courthouse was 
constructed in 1933 and listed in the National Register of 
Historic Places in 1983. Until 2008, the building was 
substantially occupied by the courts and court-related 
activities.
    In 2008, GSA completed construction of the new Wilkie D. 
Ferguson U.S. Courthouse, and tenants of the Dyer Building 
vacated to occupy the newly constructed courthouse. As part of 
GSA's efforts to right-size the portfolio, and in accordance 
with the direction provided by the administration on disposing 
of unneeded real estate, GSA intends to reposition this 
property in the near future.
    On August 1, 2012, GSA issued a Request for Information 
seeking ideas from members of the development community 
interested in redeveloping and preserving this property. 
Developing a strategy to reposition the courthouse will not be 
without some unique challenges. The utility infrastructure, 
parking lot, courtyard and tunnels are shared with its adjacent 
property, the C. Clyde Atkins U.S. Courthouse, and the cost to 
separate connections and create two separate stand-alone 
operations is estimated to be in excess of $10 million. GSA 
will look at all potential repositioning strategies and engage 
the private sector to find the strategy with the highest chance 
of success and the highest return to the taxpayer.
    As one of many landholding agencies in the Federal 
Government, GSA continues to manage our inventory aggressively 
to dispose of unneeded properties and increase the utilization 
of our buildings. We continue to work in concert with the 
administration and other landholding agencies in the Government 
to utilize real estate more effectively.
    The Southeast Sunbelt Region is pleased to be able to 
assist with these efforts. The Dyer Courthouse is one property 
that helps highlight the challenges of developing long-term 
asset strategies in changing fiscal times, and the unique 
characteristics of the property that can present hurdles to 
repositioning. GSA looks forward to finding the best strategy 
to reposition this property and working with the committee to 
continue our efforts to utilize Federal real estate more 
effectively.
    I welcome the opportunity to be here, and I am happy to 
answer any questions.
    Mr. Mica. Thank you, and I thank all three of our 
witnesses.
    We will now turn to questions, and I am going to yield 
first to Mr. Denham, Chairman Denham.
    Mr. Denham. Mr. Smith, why do you think we are having this 
hearing today?
    Mr. Smith. Sir, I believe we are attacking the problem of 
unneeded real estate.
    Mr. Denham. I just heard your testimony. It sounds like we 
don't have a problem. I mean, if GSA is doing everything great, 
which this is the first time I have heard anybody in front of 
this committee that has taken that position, if you are 
actually going to hit at least $3 billion and GSA is following 
each of the Executive orders that the President has laid out, 
it would appear that there would be no reason to have this 
hearing.
    You talk about aggressively disposing of property. When did 
this property go up for evaluation?
    Mr. Smith. Sir, this property was vacated in 2008, and at 
the time we were looking for design money to relocate costly 
leases back into this facility.
    Mr. Denham. OK, so 2008. It is 2012. Four years. Is that 
aggressively disposing of property?
    Mr. Smith. Sir, the region did aggressively request funding 
all the way through recovery because the idea of being able to 
take some of the 3 million square feet of lease space here and 
consolidate it into this facility still had applicability. We 
did not receive the funding for that. And after the Recovery 
Act, then we started to move to another disposition.
    Mr. Denham. You received nearly $6 billion in stimulus 
dollars. How much more money do you need beyond the $6 billion?
    Mr. Smith. Sir, it wasn't enough to prioritize every 
building, and the Dyer did not receive the prioritization 
there.
    Mr. Denham. OK. I am going to go through these really 
quickly here because my main questions were for Mr. Wise and 
Mrs. Hull.
    The Old Post Office in Washington, DC, how long did that 
sit vacant?
    Mr. Smith. I don't have the information on that, sir. I 
believe----
    Mr. Denham. Well over a decade. I will tell you, well over 
a decade. To me, that is not aggressively disposing of a 
property.
    The old Cotton Annex in Washington, DC, which we held a 
hearing there as well, sat for over 5 years. That is not 
aggressively disposing of property. And the Georgetown power 
plant, which took us having a hearing in before they even put 
up a For Sale sign is not aggressively disposing of property. 
So let me ask you one last question before I switch.
    Three billion dollars. You are going to hit a $3 billion 
number, which was the President's goal. Where are you coming up 
with the $3 billion number? Is that just in disposal costs in 
fiscal year 2012?
    Mr. Smith. Sir, GSA has its own number. We aren't making 
the $3 billion. We are helping other agencies with that. I 
don't have all the details on exactly what costs were counted 
with that. I do know we have aggressively looked at every cost 
that we have and included specific costs within the facilities 
that we will be saving money on.
    Mr. Denham. Is it money coming back into the Federal 
Government to reduce our debt, or is it cost avoidance?
    Mr. Smith. My understanding is that it is a combination of 
both.
    Mr. Denham. And during that same time period, this year, 
2012, did we also enter into a lease for $500 million for the 
SEC, and now most recently a $350 million lease for unneeded 
space up in New York?
    Mr. Smith. Sir, those are outside of my region, so I 
can't----
    Mr. Denham. They are not outside of mine. This committee is 
looking at all of them. So I take great offense when somebody 
sits here in front of this committee and says things are going 
great, because they are not. The conference that was held this 
week, the 77 conferences that have happened since the President 
issued his Executive order, the $1 million conference that 
happened in Las Vegas last week, and now to see an agency going 
around Congress and signing a $350 million lease when it breaks 
three different laws within our Constitution, to me that is not 
aggressively disposing of property. To me, that is offensive as 
a committee chairman that an agency is not only going to ignore 
Congress and ignore this committee, but ignore the Commander in 
Chief.
    So I don't believe the $3 billion is a real number. In 
fact, I think that GSA is going backwards on a number of these 
different issues, doing illegal leases and doing leases that 
are putting the taxpayer on the hook for money we don't have.
    Mr. Wise, the $3 billion that is being talked about as 
being saved this year, is it a 2012 savings?
    Mr. Wise. Well, Congressman, as I mentioned in my 
statement, the whole issue about savings is one that is very 
difficult to quantify with certainty because, as we discussed 
in our Excess and Underutilized Property report, we found that 
agencies were counting many different things as savings. As you 
mentioned in your question, some of it had to do with cost 
avoidance, and as I mentioned in my statement, the GSA goal, 
nearly half of it has been quantified as saving money from 
leases for new buildings constructed that they haven't moved 
into.
    Mr. Denham. Let me simplify my question. To me, a savings 
is I can take money and I can put it in the bank for a rainy 
day or I can pay off my loan. We have a huge debt right now. In 
fiscal year 2012, is there money that has been generated from 
liquidation of properties that can reduce our current debt by 
$3 billion?
    Mr. Wise. Well, we simply don't--we weren't able to tell 
from the information that we were able to gather from GSA. We 
only were able----
    Mr. Denham. How many properties have been sold this year?
    Mr. Wise. For GSA, I don't have that answer right now.
    Mr. Denham. $3 billion worth?
    Mr. Wise. Well, it is impossible to know based on what they 
told us. We only have the figure that they gave us for the 
amount of money that they said they are saving relative to the 
Presidential memorandum, and they were not very forthcoming in 
trying to give us details about that information.
    Mr. Denham. Mr. Wise, if you don't know, and Mr. Smith 
doesn't know, how can the President know that his Executive 
order was actually met, and how can he prove that to the 
taxpayer?
    Mr. Wise. Well, that is why we stated in our report very 
clearly that the savings are questionable. We aren't really 
able to say with certainty whether they all add up. We just 
couldn't get the information, and there were many different 
agencies counting many different ways of savings in order to 
say that they were reaching this goal.
    Mr. Denham. Thank you.
    Ms. Hull, let me just address one last question before I 
turn it back over to the gentleman to my left. On this 
courthouse, I have huge concern about this courthouse because 
of what it means to me in my home State of California, seeing 
L.A. open a new courthouse or build a new courthouse when we 
have a similar situation of less judges now than we did 10 
years ago, and having currently two courthouses, one sitting 
vacant and one that has excess room. I have some questions that 
are relative to this courthouse here.
    I agree with you. I am a business owner. I look at a 5-, 
10-year projection. You have had to deal with Congress and the 
amount of judges they said they were going to have. I 
understand that you have to build a suitable size for the 
future. So my question is not necessarily should they have 
built a building that is 20 percent vacant right now, or 20 
percent beyond what was currently needed. I get that you have a 
plan for the future.
    My question is, if they have 3 million square feet of 
leased space in the local area, just like in L.A. they have 
over 1 million square feet of leased space, why wouldn't we 
have filled that space for the last 4 years so that it is 100 
percent occupied?
    Judge Hull. Are you talking about space leased to the 
judiciary? I don't think that is leased to the judiciary.
    Mr. Denham. No, no. It is not. I am saying that they 
overbuilt the----
    Judge Hull. I can only speak for the judiciary space.
    Mr. Denham. The question is could they have co-located the 
FBI or the bankruptcy court, or is there any other tenant out 
of the 3 million square feet that are in this local area that 
could have filled that?
    Judge Hull. OK, I just wasn't understanding your question. 
That could have been placed where, Congressman?
    Mr. Denham. In the 200--is it 238,000 square feet that is 
sitting vacant in the new building? How much vacant space is 
sitting in the new building?
    Judge Hull. I would be happy to tour you through the 
building, but it has been filled out. It has chambers and 
courtrooms, and for future planning we have two shell 
courtrooms. So it is just the walls around the courtroom. That 
is one thing we have done with planning. Don't build up that 
courtroom until you have that judge. So it is----
    Mr. Denham. It is a shell.
    Judge Hull. It is a shell. Thank you. I appreciate all the 
help I can get.
    Mr. Denham. This is the 10th floor of the Ferguson 
Building?
    Judge Hull. Help me with the question. I am sorry. I am not 
trying to avoid it. I am trying to answer it. I am just not 
understanding it.
    Mr. Denham. Well, my point is, if the 10th floor of the 
Ferguson Building, which has the possibility to build four new 
courtrooms, if it sat vacant, if it is just a shell for the 
last 4 years, why couldn't we have put office space in there 
and housed other employees from other agencies from around the 
area?
    Judge Hull. I think it is just a cost-benefit analysis that 
has to be done, which is beyond my pay grade, frankly. If you 
are going to build an annex to have more courtrooms, and then 
you build out interiors for office space in the two shelled 
courtrooms, you will later have to deconstruct that and build 
the courtrooms again.
    Also, I think there are security concerns. There is a high 
level of security in that courthouse. There are multidefendant 
trials here. I don't want to take a lot of your time 
documenting all that. But I am looking at the 10th floor. Judge 
Martinez is an active judge. He has a full caseload. He is on 
that floor. We do have two shell courtrooms. You are correct 
there, and that is a question, should you put another tenant 
there while you wait for it to be built out. I mean, that is a 
fair question.
    But I believe the determination has been made that, in a 
cost-benefit analysis, that moving people in, moving people out 
and so forth, you would be destroying the space to then build a 
courtroom and chambers, and I think the building would have to 
be redesigned. You would want them to come in on the ground 
floor. If you were going to have tenants in a courthouse, you 
would want to put them on the first couple of floors, and then 
the court up above. You wouldn't want to put them right in the 
middle of the building.
    Is that responsive?
    Mr. Denham. Thank you.
    Judge Hull. It may not be a good answer, but I want to be 
responsive.
    Mr. Denham. It is an answer.
    Judge Hull. I want to be responsive.
    Mr. Denham. Thank you.
    Mr. Wise, can you give us a brief response to that 
question?
    Mr. Wise. Yes. First of all, I would like to thank John 
very much for making his staff available yesterday, on Sunday, 
so we got a very comprehensive look at the entire facility 
around here, the various courthouses, including Dyer and Wilkie 
Ferguson.
    But relative to your question about Ferguson, in our view 
and as we testified in the past, Ferguson doesn't appear to be 
full. As the judge noted in her testimony, there are two shell 
courtrooms, plus there is one courtroom that is not being used, 
and there are also two senior judges that have a very limited 
amount of cases that they actually hear.
    So from the perspective of current, notwithstanding what 
may happen in the future, it certainly doesn't appear to be 
full at this point.
    Mr. Denham. I am out of time here, but I just wanted to 
clarify. There is excess space. There has been excess space for 
4 years, and you do believe that some tenant, out of the 3 
million square feet that is leased here in the greater Miami 
area, that some tenant we could have found to put in there for 
the last 4 years. Is that fair?
    Mr. Wise. You are asking me?
    Mr. Denham. Yes.
    Mr. Wise. As far as what tenant could come in here, I can't 
speculate, but I can say that it doesn't appear that the 
Ferguson Courthouse is full.
    Mr. Denham. Thank you.
    I yield back.
    Judge Hull. And I can only say it is going to be filled 
sooner rather than later. That is clear. There is one vacant 
courtroom there, but there is a vacancy on that court, and 
there is a replacement judge coming. Again, there is excess 
capacity there, Chairman Denham. We are not running away from 
it.
    Mr. Denham. I understand.
    Judge Hull. OK. It is for future growth.
    Mr. Denham. I understand. We need to make good decisions as 
we are growing, and certainly as we are building. My greater 
concern is that this is not a Miami issue, that this is a GSA 
issue that goes countrywide. We are facing the same thing in 
L.A. and New York and many other big cities around the Nation.
    So my concern, while it is still a concern to have that 
vacant space there for the last 4 years, obviously we are 
holding the hearing here because this is a problem. Much like 
in California and L.A., we have an empty building like this, 
and we have a newer courtroom that has levels of that facility 
that are sitting vacant, and GSA wants to go outside of 
Congress to build a brand new courthouse next door.
    So the question goes way beyond the brand new courthouse 
that has levels that are sitting empty. The question is why 
aren't we selling off the older one, the historic building, or 
redeveloping it, or utilizing it for some type of benefit to 
the taxpayer, rather than just letting this one sit and not 
only cost us over $1 million a year but getting mold in the 
process? Let's build a community. Let's create jobs. And let's 
lower our debt in the process.
    I yield back.
    Mr. Mica. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Let me thank the three of you for being here today and, 
Your Honor, for traveling here from outside. Thank you for your 
service to the country.
    Let me thank Mr. Wise. I know that the GAO, sometimes you 
must feel that people aren't listening, but Congress is so 
appreciative, and these three members here are so grateful for 
the job that you do, and all your folks do, day in and day out.
    And Mr. John Smith, again, thank you. As Mr. Wise has said, 
even for allowing your people to be around on Sunday. Again, 
thank you for being here.
    Before I start my line of questioning, I am a little bit 
confused about the Ferguson Courthouse. Is there sharing, or is 
there not sharing? Mr. Wise, from what I hear from our side 
here, there is no sharing in the courthouse. Is that correct?
    Mr. Wise. Yes. My understanding is there is currently no 
sharing.
    Mr. Diaz-Balart. Right, and that----
    Judge Hull. Absolutely, that is correct.
    Mr. Diaz-Balart. OK.
    Judge Hull. That is what I think I said in my statement, or 
I tried to.
    Mr. Diaz-Balart. All right. I just wanted to make sure I 
heard that right. Thank you.
    Judge Hull. Yes. It wasn't planned at the time the 
judiciary had those policies. The first sharing policy was in 
2008.
    Mr. Diaz-Balart. Mr. Chairman, why don't you--I will always 
yield to the chairman.
    Mr. Mica. Well, I thought you had said that at the circuit 
level you were sharing?
    Judge Hull. The circuit is in the King Building, Chairman 
Mica, and there is sharing. Because of the nature of a circuit 
court, we sit with judges 3 at a time, and we have only 1 
courtroom in Miami, and all 17 judges share that one courtroom. 
But the work of the circuit court is vastly different.
    Mr. Mica. OK. Thank you.
    Judge Hull. But there is considerable sharing. All the 
circuit judges not only share that courtroom, but we share 
chambers.
    Mr. Mica. But it is not possible to do it in----
    Judge Hull. Not in the way the circuit court does. The 
district court operates totally different.
    But let me be clear, we are committed going forward in our 
planning process to courtroom sharing, and I think Congressman 
Diaz-Balart makes a very good point. Right now in Ferguson, 
there is not sharing. We are going to have seven active judges 
take senior status. We are going to have continuing increases 
in caseloads. We have one vacancy. We are going to have a 
replacement judge for sure. Down the road for these buildings, 
I suggest it is not going to be long, before they are going to 
be over capacity.
    But today, there is not sharing at this point in time.
    Mr. Mica. I thank the gentleman for yielding.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Judge Hull, you mentioned in your testimony that the 
Ferguson, the new courthouse, was constructed to replace this 
courthouse, the Dyer Courthouse. But in the prospectus 
submitted to this committee in 2001, it indicates that this 
building was going to be continued to be used. Specifically, 
that proposal for the Ferguson Courthouse asserted that the 
Dyer Building would house one district judge, one magistrate 
judge, four bankruptcy judges, the Public Defender's Office. So 
clearly at the time, it didn't sound like a replacement. It 
sounded like basically expanding this space.
    Now, you mentioned, and it makes a lot of sense, obviously, 
about the security issue, and we all understand that. But if 
that is what was stated before in the prospectus, that those 
entities that I just mentioned were going to be housed here, 
then why did this building, why was it totally vacated when 
that is not what was stated as the justification for the new 
building?
    Judge Hull. Well, I can directly answer that.
    Mr. Diaz-Balart. Good.
    Judge Hull. The Federal district trial court moved to 
Ferguson because that is where you have all your major--well, 
all the criminal trials. And the plan at that time, as I 
understand it, not being involved in it but trying to study the 
record in preparation for this hearing, was that we were going 
to backfill Dyer. The backfill was going to require some 
renovation money, and the renovation money was requested in 
2004 and in 2007, and it was not funded.
    Now, whether that is right or wrong, I don't speak to that. 
But you are absolutely correct. The original plan was to 
backfill Dyer, to bring public defenders in here, to have very 
limited but I would say some trial space for a district court, 
and to bring the bankruptcy judges here, because they don't 
have the criminal security issues, and that has not happened.
    The bankruptcy judges have stayed where they are. They 
haven't been moved. And as I understand it--I will have to 
check with my legislative counsel here to make sure I am 
correct--but I believe money was requested by GSA to backfill 
in 2004, in 2007, and now, because of courtroom sharing, we 
don't need to backfill here, OK?
    So we have King and Atkins and Ferguson. Those are all very 
good facilities, and they will serve this community, I believe, 
well, thanks to your help in getting those facilities.
    Mr. Diaz-Balart. Great. And again, Your Honor, I understand 
that you are dealing with----
    Judge Hull. And this is a moving target, and I am trying to 
be responsive.
    Mr. Diaz-Balart. Trust me, we understand that.
    Judge Hull. OK.
    Mr. Diaz-Balart. So don't worry about that. We understand 
that.
    Judge Hull. OK.
    Mr. Diaz-Balart. I think we understand where you are at.
    Mr. Smith, the GSA's press release for the RFI boldly 
states, ``GSA seeks ideas to develop the Miami Courthouse.'' 
That is now, after 5 years. I am assuming that is not the first 
time that was done. Has GSA itself done evaluations as to what 
would be best for the taxpayer, number one? And number two is, 
when were other RFIs submitted, and how were they submitted, 
and did you not get a response for those or what? Or were they 
not submitted before?
    Mr. Smith. Sir, I believe this is the first RFI we have 
done for the Dyer Building. It is a--it is not a common 
practice, but it is used with disposal process throughout the 
Nation.
    The other efforts and the reason we don't have RFIs coming 
out earlier is we had requests in for design money and 
construction money, and as the judge explained, there were 
previously plans to backfill this space. If we couldn't 
backfill it with judiciary or other courts, then we have enough 
lease space in the Miami area that we would have consolidated 
those into this area as well.
    The problem with that is we did have some authorization for 
design. We didn't get appropriation for design. We also looked 
to our central office to fund several times into this building 
because we do have adequate space here, but it does require 
several million dollars to build it out for other tenants.
    Mr. Diaz-Balart. Mr. Smith, I have to admit to you that I 
thought I was throwing you a softball. I mean, I really did. I 
thought, well, obviously, there have been other RFIs before 
this, that this is not the first one, and I really thought that 
I was throwing you a softball. Now I will tell you that I am 
almost speechless, which is rare for me, that all of a sudden--
--
    Mr. Denham. It is rare.
    Mr. Diaz-Balart. It is rare, as my colleagues will tell 
you. So the day that the hearing is here is when, all of a 
sudden, the RFI goes in. Now, we are finding that as we go 
across the country. I, frankly, am speechless. I am absolutely 
speechless.
    Now, I keep hearing the fact that, well, there is an issue 
of funding. Look, it was fully authorized. How do I put this 
kindly? Six billion dollars is real money. GSA was given an 
additional--$5.9. I stand corrected. GSA was given an 
additional $5.9 billion with, frankly, a lot of flexibility. So 
it was authorized. Out of the blue, GSA is given an additional 
$6 billion, additional. It is hard to keep hearing that, well, 
the money wasn't there.
    And again, I have to tell you this, Mr. Chairman, both 
chairmen, when I saw this, I figured, OK, this is kind of a 
reminder of--the committee is here, so it is a reminder to GSA 
to do this RFI. Now when I hear that this is the first time 
this has been done since this building has been vacated is 
unbelievable.
    Can you imagine if this was in private hands? I mean, this 
looks like the Biltmore. We could be in one of the ballrooms of 
the Biltmore, except for this furniture. And it took this long 
for the GSA to even move forward?
    With all due respect, sir, I am almost speechless, I really 
am.
    During the last 5 years, has GSA looked--are there any 
internal studies or reviews or evaluations completed by GSA in 
the last 5 years for either selling or re-using or developing 
this building?
    Mr. Smith. Yes, sir. The initial plan was to try and 
relocate leases into this building. When that fell through, we 
also tried to determine--the complexity of this is that the 
power plant for this building powers the Atkins Building. It is 
expensive, and I said in my statement it is at least $10 
million to separate the utilities for these two pieces.
    This is an historic building, it is a national treasure, 
and it needs to be preserved as well. One of the issues with 
the disposition of it is the security and the separating of the 
utilities, which makes it rather difficult.
    Mr. Diaz-Balart. I understand that. But again, the RFI was 
released whenever--I mean, this week? Last Friday. With all 
those technical issues that you are telling me about, this was 
done just last week, which is, frankly, crazy.
    Going back to Chairman Denham's question, I guess there are 
Government agencies that lease properties here in south 
Florida, in the Miami area?
    Mr. Smith. Yes, sir. We have a little over 2.5 million 
square feet of lease space.
    Mr. Diaz-Balart. 2\1/2\ million square feet, which we are 
paying for, the taxpayers are paying for the leased property, 
when we have this vacant building.
    How aggressive was the effort to try to relocate? If you 
tell me now that it is a lack of money, again I go back to the 
$6 billion. That may not sound like a lot to the Federal 
Government, but $6 billion of additional, over-the-top money 
just parachuted in, that is real money.
    So can you explain to me how aggressive, what was done to 
try to get those other agencies that have properties that are 
being leased throughout the county to come here once you got 
the $6 billion? What was the effort to try to get part of that 
$6 billion to do that?
    Mr. Smith. Sir, GSA prefers to have its tenants in owned 
buildings, and we are very aggressive in moving toward that, 
and we have been for a number of years with our portfolio 
restructuring. It is the preferred avenue. It is cheaper for 
us, and we know in the long term it is better to own than to 
lease, unless there is a short-term requirement.
    The recovery funds were prioritized throughout GSA, and we 
did a lot of great work with that $5.9 billion. Dyer did not 
fall into the priority of that. But it is our effort and we had 
attempted--the region requested funding, and we fought hard for 
it at the central office for it to be prioritized in that 
manner. But there were a number of needs beyond just what we 
had here, and we didn't prioritize high enough on that list.
    Mr. Diaz-Balart. Judge Hull, let me ask you this. You 
mentioned in your testimony that the judiciary no longer 
occupies this building and it is up to GSA to determine what to 
do with it, and nobody is denying that. Do you know, does the 
court have a process to actively consider what is going to 
happen with the building that is being vacated, as opposed to 
just GSA is going to deal with it? What role does the court, if 
any, have in that, and should it be more involved in that, with 
once it vacates a building which, in essence, it occupied for a 
long time? Or is that, frankly, just basically no, folks, stay 
away, that is GSA's responsibility and we will deal with it? Do 
you know how that plays out?
    Judge Hull. Well, I think the court does try to work hand 
in hand with GSA. They are our landlord. We are the tenant. We 
try to work together.
    As I mentioned earlier, there was a plan. Yes, we do try to 
consider what we are going to do when we vacate something. Are 
we going to immediately turn it back over so it can be leased? 
That happens. Are we going to use part of it and lease part of 
it? That happens.
    The plan here was to backfill it with some court usage, but 
then the funding did not occur. I don't know what else to say. 
Plus, we learned a lot about planning. We adopted courtroom 
sharing policies. So that has impacted everything. We have 
adopted a different methodology for planning.
    So, yes, we try to work with GSA. We did for a few years 
work with them trying to get some money for remediation here, 
but we were not successful. So what I am saying at this point 
in time--not from the get-go, but this point in time--yes, it 
is now a decision of GSA. I hope that is helpful.
    Mr. Diaz-Balart. Thank you. Yes, absolutely.
    Thank you, Mr. Chairman. You are being very generous in 
allowing me to ask this many questions.
    Mr. Smith, the committee has identified a number of 
buildings during its investigation that are either vacant or 
underutilized, and yet, as the chairman said, that are not 
listed as such in GSA's database. The Cotton Annex in DC, it 
has been vacant for 5 years, but it is not listed. This vacant 
building has been listed as mission critical. Can you explain 
that?
    Mr. Smith. Sir, the Federal Real Property Profile, which 
these properties are listed in, is a snapshot in time. It is an 
annual report, and it may or may not be accurate from 1 year to 
the next because of dispositions that happen. I believe this 
would have been listed as mission critical with our efforts to 
consolidate leases into this facility because we had plans for 
it, and that is probably the cause for that listing.
    Mr. Diaz-Balart. Thank you.
    I yield back, Mr. Chairman. Thank you very much.
    Mr. Mica. Thank you.
    A couple of questions. The first is to Mr. Smith.
    It has actually been known since 2001 that this property 
would be vacated. It took several years to construct the 
building. Prior to 2007, I guess, it was finished, and they 
moved into the other building. Do we have a requirement that we 
have a utilization plan for buildings that are going to be 
vacated and we know far in advance?
    Mr. Smith. Sir, I believe the design funds had been 
requested prior to the courts moving out of this building.
    Mr. Mica. So, actually, we go beyond the 5 years. We are 
probably looking at 7 years or more in which they had an 
opportunity to do something with this building. Is that right?
    Mr. Smith. I didn't have this portfolio then, sir, but we 
do ask for a----
    Mr. Mica. Well, 5 plus 2 would be 7 at least.
    Mr. Smith. We do ask for funding prior to buildings being 
vacated.
    Mr. Mica. And we heard that substantial funding, $5.9 
billion, with great discretion was made available to renovate 
buildings, and nothing was done with this building to get it 
ready to be utilized for leasing or whatever. Is that correct?
    Mr. Smith. It didn't fall high enough in the priority. A 
number of buildings that we had did not fall into those 
priorities.
    Mr. Mica. Well, here again you testified--our staff says we 
have $2.5 to $3 million worth of leased property in south 
Florida, and then you just said a few minutes ago that it is 
your policy and it is better to own rather than lease. Does the 
Federal Government have title to this property?
    Mr. Smith. Yes, sir. And that----
    Mr. Mica. Does that constitute ownership?
    Mr. Smith. Say again, sir?
    Mr. Mica. Does that constitute ownership, if we have title 
to this property?
    Mr. Smith. Yes, it does.
    Mr. Mica. Yes, that is pretty obvious. And we would save 
money if we could be utilizing this building, as opposed to 
paying some landlord since we own it, right?
    Mr. Smith. Sir, we can't just move people directly into a 
facility.
    Mr. Mica. No, and you can't move people into this building. 
I mean, this is a very sad day for the taxpayers because this 
building has sat vacant for 5 years. It has also cost the 
taxpayers at least $1.2 million a year. That is $6 million. I 
started off and all the attention has been on a quarter-of-a-
million-dollar conference, another one three-quarters-of-a-
million, and that is huge waste, significant waste. But here, 
that totals $1 million. We have wasted $6 million in 
maintaining this building, and not maintaining it very well, 
because I know the day that people left here, the mold and the 
other conditions were not the way they are today. Is that 
correct?
    Mr. Smith. Sir, we put as much effort as we can to minimize 
the operational cost, and to preserve assets like this, and the 
Congress has been very supportive of us to do that.
    Mr. Mica. This is an historic building and it has value. 
Actually, it is in a lot better shape. I was a developer. I 
could get this building leased and operational with some 
revenue. I mean, Miami is a very competitive--Florida is a very 
competitive market for commercial or professional space, and it 
has value, but it sat here vacant costing, again--this is $6 
million. Unfortunately, this is a repeated pattern from sea to 
shining sea. We will be in Los Angeles next week. We just did 
three in Washington, DC. We could do one a day probably for a 
month in Washington, DC.
    So it is a very, very sad day. It has been a very sad 5 
years that we would let an historic building further 
deteriorate to the condition of this building. And it is a 
beautiful historic building. I walked around it today and 
examined it, so I am very concerned.
    Let me ask you a question. This might get a little 
personal. Did you get a bonus, any of the bonuses from GSA?
    Mr. Smith. Yes, sir.
    Mr. Mica. You did. So you got a bonus. Can you tell the 
committee how much they gave you a bonus?
    Mr. Smith. I would have to get back to you, sir. I don't 
recall the exact amount.
    Mr. Mica. A guesstimate? Is it $5,000? $10,000?
    Mr. Smith. It showed up in my paycheck. I don't really pay 
much attention to it. It is not what motivates me to do this 
job.
    Mr. Mica. Well, again, someone else made the decision on 
you getting the bonus, in contravention to the Presidential 
edict. It is just like everything else with GSA. We have 
fought, Mr. Denham and I, from the week we took over a year-
and-a-half ago, the very first hearing. We knew something was 
wrong when the administrative costs of GSA had ballooned 300 
percent in a year, and we asked for information on what they 
were doing with the money. They gave us back single sheets and 
one-line answers. It took investigations from the Inspector 
General's Office, and finally, even after stonewalling time and 
time again, we finally got some information on one outrageous 
conference with the notorious Mr. Neely in his hot tub, 
thumbing his nose at the committee and the Congress. That took 
us, what, Mr. Denham, over a year, a year-and-a-half? Well, not 
a year-and-a-half. A year and 2 months.
    So we are very frustrated. I am frustrated on the bonuses. 
We asked questions. Our investigators, some of them here today, 
asked questions about the bonuses that were given. They said 
$10 million to our committee and our staff. Thank God for the 
press. They asked for a Freedom of Information request before 
ours about the same thing and found another $33.5 million in 
bonuses, a total of $43 million in bonuses, and you got one. It 
turns out GSA has 1 percent of the Federal employees. How many 
employees, staff, 12,000 or 15,000? Thirteen thousand, 1 
percent of the Federal employees, and you all got 10 percent of 
all the bonuses, which were not even allowed by an edict of the 
President of the United States.
    Now, you begin to wonder who is in charge when you see a 
magnificent structure like this sitting idle, people getting 
bonuses, and assets in the billions of dollars across the 
United States--and we are supposed to be trustees for the 
taxpayers--going to rot, or mold in this instance. And you told 
me, Mr. Smith, you told the committee--let me see. What was the 
amount you told the committee that you were talking about, what 
you disposed here? Thirty-four properties, $25 million; is that 
right?
    Mr. Smith. I believe that is correct, sir.
    Mr. Mica. In your region, that you see. Twenty-four million 
is nothing. It is astounding. They must have been pretty small 
parcels and not very good deals for the taxpayers.
    But just on a regional basis, there are thousands in every 
one--how many regions are there?
    Mr. Smith. There are 11 regions.
    Mr. Mica. Eleven regions. Well, then I am right, we are 
probably in the 1,000-plus properties. But don't worry, folks, 
we got rid of 34, and we brought in $25 million for the 
taxpayer. Man, we are really on our way.
    Thank you for highlighting this. It is astounding.
    Mr. Denham, you know, we did this little thing at the power 
plant, the Power Building, a beautiful building in Georgetown. 
They put that sign up the day before. I have to congratulate 
GSA, they are really moving forward in an expedited basis. When 
did this come out, sir? Friday?
    Mr. Smith. August 1st.
    Mr. Mica. So at least it wasn't the day before. I guess 
that is a weekend and people don't work, so they got that done.
    Well, it is totally frustrating. It has got to be 
frustrating for the American taxpayer.
    Mr. Wise, is there something in the law we are missing that 
doesn't give GSA the discretion to do this? When we gave them 
the authorization, way back even before they testified, to do 
something about this property, there was $5.9 billion given to 
GSA with great discretion by the administration, stimulus 
money, 3 years ago. It sounds like we could fit in enough money 
to make this property utilized, and that was 3 years ago, 
before the mold was probably in the back of the building.
    We saw the mold in the back there. It is absolutely 
disgusting that a property would be allowed to deteriorate that 
is taxpayer--you know, we are in charge of this stuff. It is 
just three of us out of 435 in the House and 100 in the Senate, 
but we are in charge of this. The people are expecting us to do 
something responsible.
    Mr. Wise, is there something we are missing that we didn't 
give discretion? Do I need to change the law? What do we need 
to do?
    Mr. Wise. Well, Congressman, specifically referring to 
Dyer, we were looking at excess and underutilized property. In 
the work that we did, since Dyer is not classified as excess, 
it did not fit into our scope.
    Mr. Mica. It's just sitting there.
    Mr. Wise. But speaking in a more----
    Mr. Mica. Sitting there deteriorating, sitting there 
molding.
    Mr. Wise. Yes, that is pretty much what is happening.
    Mr. Mica. And if we hadn't held this hearing today, this 
wouldn't even have been issued Friday. Is that right?
    Why isn't it on the list? Well, again, it doesn't have to 
be on the list. It is an historic building. It could have 
utilization. I could answer a whole bunch of these questions, 
but my question is have we missed the mark as Congress? I know 
we have missed the mark in not having people aggressively go 
after this before Mr. Denham and I, and Mr. Diaz-Balart. Here 
is the report here that I made up for this year. ``Sitting on 
Our Assets: The Federal Government's Misuse of Taxpayer-Owned 
Assets,'' October 2010. We were in the minority.
    If you go to the first page, we just didn't make it up. 
GSA--the Dyer Building is in this report, too, I just told my 
staff.
    So again, I come out of the private sector. None of this 
makes sense, but we have got to get a handle. What is really 
irritating me, and I told you, that you are an appropriator. 
Now, listen to what they have done. We have tried for 2 months 
to hold hearings. We finally held one last week. We couldn't 
get anyone to come in because they were on vacation. One of the 
principals who is involved in this in the second tier of GSA 
leadership took a medical leave. The Deputy Administrator 
wouldn't come in because she is on tape drumming at the 
conference.
    Then we wanted someone--Mr. Denham and I are convinced that 
the private sector could do a better job. But what is 
absolutely incredible about this, and we have tried to get 
witnesses to come in, they will tell us off the record that 
they could do a better job and we could find a better model, 
but none of them will come in and testify because they have 
been so intimidated by GSA, which is the primary property 
holder in Washington and the country, that they will not 
testify.
    So we find ourselves in an interesting situation here in 
Miami, one more example of incredible, wasteful spending, not 
just in the millions but this is the tip of a multibillion-
dollar fiasco across the country.
    I don't know what else to do but continue our hearings. We 
will do them week after week. We will work down the list of the 
structures. Something has to motivate these people. Now we have 
an acting administrator, we have the agency in disarray, and we 
have everybody being rewarded. One reason the guy didn't show 
up last week was he got, what, a $50,000 bonus? And, no offense 
to Mr. Smith, he got a bonus. So I guess, I don't know, maybe 
we just continue paying more for getting less and poor 
performance. That may be a new formula.
    I yield back to--let me yield time now to Mr. Denham, 
Chairman Denham.
    Mr. Denham. I think the answer is we hold them accountable, 
from the top down, which is why I am glad that Mr. Diaz-Balart 
is here, because it is important that our two committees work 
together. We are going to continue to hold hearing after 
hearing across the Nation addressing each of these different 
issues, and ultimately if we are not going to be--if GSA is not 
going to reform, we will reform it through the appropriations 
process.
    I understand that you feel like you haven't had enough 
money, but we are going to make sure you have even less if you 
can't reform what you are currently doing.
    This is why it is important for the agency administrator to 
be here today, last week, next week, because what we are 
dealing with here is not just a regional problem. This is not 
one courthouse that is an issue. I understand that the $6 
billion in stimulus money may not have been prioritized 
correctly. I would not have spent money on border stations on 
the northern border that have a border crossing of 50 people or 
less, and we spent $15 million. That would not have been my 
priority. I understand that is outside of your region as well.
    But where my concern lies with these courthouses is, in 
this instance, GSA took all of its money and built a new 
courthouse, an oversized courthouse. Planning in the future, 
fine. Utilize not only that excess space but, more importantly, 
leave yourself enough money so that you can keep this building 
in nice shape so that you can move a new tenant in here.
    Now, this is not just your problem or a regional problem. 
Right now, today in Billings, Montana, we have just completed a 
new courthouse within the last 2 years and leaving the other 
courthouse vacant. So we are replicating the same problem today 
that you have had to deal with for the last 4 years. At the 
same time, the hearing we are going to hold next week in Los 
Angeles even takes it much further. They are going to spend 
$340 million that they don't have on a building that is too big 
and unneeded, without having any redevelopment money for the 
historic courthouse that is going to sit vacant like this one.
    GSA is not learning from past lessons, and that is what 
should have every taxpayer concerned. That is why we need the 
agency administrator here, because it is not just a regional 
problem, it is not just a Miami problem. This is an issue 
across the Nation with misspending money and then furthering 
the problem because you are leaving vacant courthouses empty.
    Let me ask each of you a question. Actually, let me start 
with you, Mr. Smith. How many people work in the four buildings 
in this complex?
    Mr. Smith. I don't have that answer, sir.
    Mr. Denham. Mr. Wise, how many people in the----
    Mr. Wise. I don't know, Congressman.
    Mr. Denham. Ms. Hull, do you----
    Judge Hull. I am sorry. I have no idea.
    Mr. Denham. So there are four buildings in this complex, 
and none of you know how many employees are in there.
    We have about 1 million square feet of office space. If you 
have no idea of how many employees are in there, I bet you 
can't tell me what the utilization rate is.
    Mr. Smith, what is the utilization rate of----
    Mr. Smith. Sir, we measure utilization rate by the number 
of occupancy agreements that we have in the facility.
    Mr. Denham. So how many occupancy agreements do you have?
    Mr. Smith. Well, these buildings would be considered fully 
occupied. There are some vacancies----
    Mr. Denham. Is this building fully occupied?
    Mr. Smith. This building is not.
    Mr. Denham. Is the Ferguson Building fully occupied?
    Mr. Smith. It has a slight vacancy rate in it. It has the 
two shell courtrooms.
    Mr. Denham. Mr. Wise, what is the utilization rate?
    Mr. Wise. In the courts here? Again, Congressman, as I 
mentioned earlier, due to the way we scoped our assignment on 
excess and underutilized properties, we didn't do any 
courthouses because they weren't listed as excess. As a result, 
we do not know how they relate to the FRPP and the utilization 
rate and other factors that go into those data elements.
    Mr. Denham. I understand this is a problem with the United 
States Government. I could give you a utilization rate of every 
single one of my warehouses because I make money based on the 
utilization rate of how quickly we are turning our pallets. I 
can tell you the utilization rate in my office space because 
before I go hire a new salesperson, or before I hire somebody 
in my operations, I know what my utilization rate is. My kids' 
college fund depends on it. What is the future of our kids as a 
Nation if we can't figure out how we are utilizing our 
properties?
    Now, as a Congressman, I can tell you the utilization rate 
of every single one of my offices based on how many employees 
we have. When we get some interns in, we are really cramming 
some utilization rate.
    I get it from a national perspective. It is a heavy task to 
do, especially when you have a great deal of reform that is 
needed. But you can't tell me in your region, you can't even 
tell me what the utilization rate is between these four 
buildings. How can you ever justify putting this on the auction 
block or redeveloping it if you don't know what your 
utilization rate is on the other three buildings? That is a 
huge problem.
    I yield to Mr. Diaz-Balart.
    Mr. Diaz-Balart. I am speechless.
    Mr. Denham. Again?
    Mr. Diaz-Balart. Yes. It is just unbelievable. I am, 
frankly, just speechless.
    Mr. Chairman, when that $5.9 billion that was part of the 
stimulus landed on the laps of GSA, a lot of that funding was--
the priority was to refit in order to make green buildings and 
more energy-efficient buildings. Now, we obviously all want to 
make sure that all buildings are as energy efficient as 
possible, and if they can be lead certified, that is wonderful.
    But one of the things that I am having a hard time dealing 
with here is--and again, this is on the national level, but it 
filters all the way down. So you have here and elsewhere 
buildings that are empty that the taxpayer owns. You have, 
then--you are maintaining those buildings, and unfortunately 
not so well, because now this building has mold, which means 
that if and when another usage would be found or another 
tenant, you are going to have to now spend an additional 
probably in the millions of dollars to get rid of that mold. 
And yet, buildings, other buildings where taxpayer money was 
spent to make them more green, while these buildings are 
leaking green.
    It is, frankly--and I have to tell you that when you were 
talking about you as a private-sector man, how you do know what 
your utilization is because that is how you make your 
decisions.
    So I, frankly, probably for the first time in my entire 
public years of service, I am just--I don't know what to say. I 
don't know what to say, but I do know what to do. Mr. Chairman, 
it is so crucial, and I want to thank you and Chairman Mica for 
your leadership in this, to make sure that when the 
appropriations process takes place, clearly we are going to 
have to take some serious steps to make sure that those funds 
are prioritized, to make sure that if you look at the amount of 
money that can be saved--Mr. Wise, do you know how much GSA 
spends on maintaining vacant and underutilized buildings?
    Mr. Wise. I do not have that information at hand, 
Congressman.
    Mr. Denham. Annually?
    Mr. Diaz-Balart. Annually, yes. Do we know that?
    Mr. Denham. It's about $2 billion.
    Mr. Diaz-Balart. Governmentwide, it is about $2 billion? We 
are emphasizing today GSA, but it is not the only issue out 
there. About $2 billion.
    So if you could utilize those buildings and not have to 
maintain empty buildings, and started getting lease money for 
it, rent money for it, imagine what you could do, imagine what 
you could do.
    Mr. Chairman, I am, again, for the first time in many, many 
years of doing this, I am just totally--there are no words to 
describe my--Your Honor, you deal with difficult cases. So I 
don't know what you do when you have a case that is just really 
frustrating. You just have to contain yourself. But this is 
unbelievable. This is unbelievable, the attitude of--well, 
again, I do not mean this as disrespect to Mr. Smith because we 
don't know the circumstances. But when you have this kind of 
thing happening and then bonuses are given out, the question 
has to be asked what is the criteria for those bonuses? I don't 
know.
    We obviously will continue to work on this, but I think it 
is so important, Mr. Chairman, to coordinate the appropriations 
process with the work that this subcommittee and this committee 
is doing, because we obviously have a serious, serious flaw.
    Mr. Wise, lastly, Chairman Mica asked you about specific 
legislation. Is there something that we are missing? And I 
apologize. We are just--I can tell you that I am just in awe in 
a negative sense. Is there legislation that we could do to 
allow--are there obstacles to GSA being able to do some of 
these things to fix some of these problems?
    Mr. Wise. Well, Congressman, as you may know, there is 
legislation that is in various stages of the legislative 
process. There are several proposals. The administration has a 
proposal, the Civilian Property Realignment Act. Congressman 
Denham had worked on and sponsored a House bill, 1734. We 
testified earlier that CPRA represents steps in a direction 
that would help work on some of the problems associated with 
real property management, getting at issues such as the 
stakeholder influences, and could result in some cost savings.
    The Senate also has a proposal. I think these are steps 
that could work towards the direction of helping to improve the 
management of the Federal portfolio and rightsize through a 
BRAC-like process. We talked about that at the previous 
hearing, Congressman Denham.
    So there is some movement in that direction that I think 
could be viewed as positive.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Denham. Mr. Smith, we were talking about the Civilian 
Property Realignment Act. Do you think that would help your job 
in setting up a BRAC-like commission?
    Mr. Smith. Sir, we support the administration's position, 
and we also think that any----
    Mr. Denham. What is the administration's position?
    Mr. Smith. The current legislation that is out there, and 
that if there is a civilian BRAC, that it needs to have some 
means of incentivizing agencies, taking care of stakeholder 
interest, and also cutting the cost of disposal upfront. As I 
believe Mr. Wise has discussed in his report, some type of 
force structure. BRAC has been pretty successful because they 
start with a force structure, and if the Federal Government 
were to have something similar to that, that would be extremely 
helpful.
    Mr. Denham. Thank you.
    Chairman Mica.
    Mr. Mica. Thank you.
    Mr. Smith, who made the decision to put this notice out 
Friday?
    Mr. Smith. Sir, that came between my office and the Office 
of Property Disposal in central office in Washington, DC.
    Mr. Mica. Did you initiate it, or did Washington ask you to 
initiate it?
    Mr. Smith. It comes from our region. We initiate the 
activity in this region, and we talk to the Office of Property 
Disposal, which has a governmentwide mission. They not only 
dispose of governmentwide properties, but they dispose of all 
GSA properties. So it is a joint venture between us and that 
office.
    Mr. Mica. But it basically was prompted because of the 
hearing?
    Mr. Smith. No, sir. It is part of our process.
    Mr. Mica. So it just was accidental?
    Mr. Smith. It was coincidental. It was the decision of us 
to go forth. We are looking--this is actually the start of the 
marketing for this, and we are looking at any and all 
possibilities to--this is a complex property, it is an historic 
property we need to preserve.
    Mr. Mica. I went to Miami Dade Community College. Is it 
still, or is it a State college? One of the campuses is across 
the street. It would probably make some great classrooms. But 
now we have incurred, I think with the deterioration of the 
building, even more cost. So we have paid $6 million by simple 
calculation to keep it vacant and lost the opportunity to 
utilize this.
    When I went to Miami Dade in the beginning, we had some 
converted chicken coops up on 95th Street or 102nd, before they 
moved over to the Opa-lacka to finish the base where they built 
the campus up on the north side. But we would have given our 
eye teeth for anything even near the quality of even the 
deteriorated structure we are in today.
    Mr. Wise, again, if you could supply the committee--if 
there is anything you could supply the committee with, 
recommendations, maybe you could counsel with others who have 
looked at this situation, see if we are missing something as 
far as the law.
    My purpose isn't to come here and just berate GSA, but this 
can't happen again. Of course, Mr. Denham and I and Mr. Diaz-
Balart, we want to hold people responsible and accountable. But 
we also don't want this to happen again. We don't want this to 
continue to happen. I don't know if we can make it through 
13,996 properties.
    Mr. Denham. This is the new one that was just done with the 
stimulus dollars, and the L.A. Courthouse is the one that is 
proposed to be done. It is an ongoing issue. It does continue 
to happen.
    Mr. Mica. I'm sorry. Mr. Diaz-Balart?
    Mr. Diaz-Balart. Mr. Chairman, that is exactly what I was 
about to bring up. Again, it is insanity that we are here in 
this empty building, and there are others around the country. 
But it is not only the problem that we already have from 
existing empty buildings. In L.A., there is a courthouse that 
GSA looks like it is moving forward to build, which means that 
there is going to be a 700,000-square-foot building that will 
be vacated. So it is not like, OK, these were mistakes that 
were made. It continues to happen.
    Now, the GSA, Mr. Chairman, as you know, can stop that 
tomorrow and say let's not spend the money on a new courthouse 
and leave vacant another 700,000-square-foot building that they 
are going to have to maintain as well. Let's spend less money 
and maybe fix up the existing courthouse.
    So this is not just--we are not talking about sins of the 
past. This continues to happen now as we speak. And that is why 
it is unbelievable, Mr. Chairman. Thank you for your----
    Mr. Mica. Well, then again, we have seen the agency abuse 
their authority or not use their authority and then people 
being rewarded for it. I am not picking you out solely, Mr. 
Smith, but I would like you also to provide for our 
information, for the committee, the amount of your bonus.
    And, staff, make that part of the record of this hearing. 
If he doesn't provide it, get it from GSA.
    I want to thank Judge Hull for also participating. The 
courts have an important responsibility, and it is the 
responsibility of Congress to make certain that you have 
adequate infrastructure and housing accommodations and 
facilities to carry out your important work, some of the most 
important work, I might add, in our society. People have a 
refuge of justice in the United States, but we do need to look 
at how we provide those facilities.
    I think you have provided us with some information about 
changing some of the database, the manner in which we in the 
past have calculated the use, the requirements, and the future 
needs that are so important, and you don't want to sell 
yourself short when you do build a new structure. But by the 
same token, you don't want to leave buildings behind, and we 
have done that time after time in this whole process.
    Staff, I would also like to look at the 2.5 million square 
feet we have leased, see when some of those leases became due, 
just for the record, in the last 5 years. I am certain that 
there could have been some better utilization. The testimony we 
had here today by GSA was it is better to own than to lease, 
and here they violate their own premise and also stewardship of 
taxpayer dollars when we are letting this sit idle and paying 
to lease somewhere else. I am certain some of those 
opportunities became available.
    And then working with the community. This is co-located 
with Miami Dade in the heart of downtown, and this can be 
better utilized. But the sad part is now we have remediation 
for mold. We have a building that sat idle for 5 years. It 
still probably has a great potential life. It is an absolutely 
gorgeous, historic structure, well built, and will be here 
probably longer than the Ferguson Building and some of the 
others.
    I read, too, the history of it. I guess one of those up 
there is one of the architects or designers of the building. I 
think he was painted into that mural of the history. But it was 
built with poured concrete to withstand hurricanes. This is 
solid as a rock as they get in the State of Florida, an 
historic, beautiful building incorporating some of the native 
limestone and others. So it is on the National Historic 
Register, and I don't know if we can cite GSA for abuse of an 
historic property, but certainly misuse of taxpayers' dollars 
and the stewardship that they inherited.
    So thank you, Judge Hull, for coming down. We will continue 
to work with you. You had an opportunity here, and in exchange 
our issues with authorizers, and I can't be more grateful for 
Mr. Diaz-Balart as an appropriator for being here, and also 
this is an unusual gathering because you have the former chair, 
chair, current chair of the full committee, and all three of us 
are determined to do whatever we can to make certain that we 
improve this whole process.
    Mr. Wise, thank you for your work. We continue to work with 
you, trying to root out some of the answers we seek to do a 
better job.
    Mr. Smith, you can tell we are not happy campers with GSA. 
Sorry you had to take the brunt of this today, but we are 
expecting more out of an agency that plays a very important and 
vital role for the taxpayers and for the Congress and part of 
the United States Government.
    So with that, without objection, I am going to leave the 
record open for 2 weeks. If you would like, you can submit 
additional testimony or your written testimony.
    Without objection, so ordered.
    And we will also be in that period addressing additional 
questions to the witnesses for the record.
    There being no further business before the Subcommittee on 
Economic Development, Public Buildings and Emergency 
Management, and before the House Transportation and 
Infrastructure Committee, this meeting is adjourned.
    Thank you.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
